D
I                                                            SINGLE AUDIT
S
C                                                            QUALITY CONTROL REVIEW
U
S
S
I
O
N              Office of Inspector General—Office of Audit
D
R
A
F
T




                                                             RECOVERY ACT: QUALITY CONTROL REVIEW
                                                             SINGLE AUDIT OF JOB SERVICE NORTH
                                                             DAKOTA FOR THE YEAR ENDED JUNE 30, 2010




                                                                                Date Issued:   September 30, 2011
02-A12-345-67-890                                                            Report Number:      18-11-008-03-001
                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 30, 2011
                        Assistant Inspector General’s Report

David Krebsbach, Finance Manager
Job Service North Dakota
1000 E Divide Ave.
Bismarck, ND 58506

Dear Mr. Krebsbach:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor (DOL), Office of Inspector General (OIG)
conducted of the Single Audit of Job Service North Dakota (JSND) for the year ended
June 30, 2010, completed by Eide Bailly, LLP (Firm), under the Federal Single Audit Act
and Office of Management and Budget (OMB) Circular A-133 (A-133).

Our review included the following DOL major programs: the Employment Services (ES)
cluster, Unemployment Insurance (UI), and Workforce Investment Act (WIA) cluster
totaling $153,469,345, which includes $13,995,400 of American Recovery and
Reinvestment Act (Recovery Act) expenditures.

Since our review included Recovery Act funds, we are required by the Recovery Act to
post this report on our website www.oig.dol.gov and link it to the Recovery
Accountability and Transparency Board’s (Board) website www.recovery.gov.

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the Single Audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

The audit work performed by the Firm over compliance with requirements applicable to
each major program and internal control over compliance in accordance with A-133 was
acceptable. However, audit work related to the Statement of Expenditures of Federal
Awards (SEFA) did not meet certain requirements of A-133 in that the Firm did not
report a material error in the SEFA. The Firm should report an internal control finding
related to a material misstatement of the SEFA, and work with JSND to reissue the
Single Audit reporting package to the Federal Audit Clearinghouse. The Firm should
improve its supervisory review of audit documentation and quality control over reviewing
Single Audit reports; and also provide additional training to those responsible for
ensuring Single Audit reports are properly presented.

A-133, Section 400(a)(5), requires us to advise the auditor, and where appropriate, the
auditee of any deficiencies found in the audits when the deficiencies require corrective

                                              1      Single Audit QCR – Job Services North Dakota
                                                                 Report Number: 18-11-008-03-001
                                            U.S. Department of Labor – Office of Inspector General


action by the auditor. When advised of deficiencies, the auditee shall work with the
auditor to take corrective action. If corrective action is not taken, we are responsible for
notifying the auditor, the auditee, and applicable Federal awarding agencies and
pass-through entities of the facts and make recommendations for follow-up action.
Major inadequacies shall be referred to appropriate state licensing agencies and
professional bodies for disciplinary action.

Details on the results of our review are provided in the Enclosure.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Ms. Barb Aasen, Partner, Eide Bailly, LLP

   Ms. Judith A. Fisher, Director, Division of Policy, Review, and Resolution
   Employment and Training Administration

   Ms. Darlene Lucas, Audit Liaison, Employment and Training Administration

   Ms. Kari Baumann, Audit Liaison, Employment and Training Administration




                                              2    Single Audit QCR – Job Services North Dakota
                                                               Report Number: 18-11-008-03-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                   Enclosure

                       Recovery Act: Quality Control Review
                      Single Audit of Job Service North Dakota
                          for the Year Ended June 30, 2010
                                  (18-11-008-03-001)

Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit for state and
local governments, colleges, universities, and not-for-profit organizations that expend
Federal funds equal to or greater than $300,000 in any fiscal year ($500,000 for fiscal
years ending after December 31, 2003.)

On November 18, 2010, the Firm issued a Single Audit report of the JSND financial
statements, SEFA, and reports required by Government Auditing Standards (GAS) and
A-133 for the year ended June 30, 2010.

Our review included the following DOL major programs:

DOL Major Programs
Reviewed
                           Catalog of Federal          Recovery                     DOL
        Major Program              Domestic           Act Funds              Major Funds
                                  Assistance         Reported as             Reported as
                             (CFDA) Number            Expended                 Expended
                            17.207
ES Cluster                  17.801
                            17.804                                            $ 6,558,810
UI                          17.225                                           $127,669,722
                            17.258
WIA Cluster                 17.259
                            17.260                                              $5,245,413
Recovery Act – ES           17.207
Cluster                                                  $982,570
Recovery Act – UI           17.225                     $9,803,908
                            17.258
Recovery Act – WIA
                            17.259
Cluster
                            17.260                     $3,208,922
Subtotals by Funding
Source                                                $13,995,400             139,473,945
Total DOL Major
Program Funds
Reported as Expended                                                         $153,469,345


                                            3    Single Audit QCR – Job Services North Dakota
                                                             Report Number: 18-11-008-03-001
                                            U.S. Department of Labor – Office of Inspector General




Since our review included Recovery funds, we are required by the Recovery Act to post
this report on our website www.oig.dol.gov and link it to the Board’s website
www.recovery.gov.

Objectives

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the Single Audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention. To address these objectives, we answered the following question:

Did the Firm’s Single Audit comply with applicable standards and Single Audit
requirements so that no follow-up work or management’s attention would be
needed?

Results

The audit work performed by the Firm over compliance with requirements applicable to
each major program and internal control over compliance in accordance with A-133 was
acceptable. However, audit work performed related to the SEFA did not meet certain
requirements of A-133. Specifically, the Firm did not report a material error in the SEFA
related to JSND not identifying total UI expenditures. Although the audit work over
compliance and internal control over compliance was acceptable, the Firm did not
always ensure audit documentation was sufficient to allow a knowledgeable person with
no prior association with the work to be able to reach the same conclusions as the
auditor.

Additional work is required to bring this audit into compliance with the requirements of
A-133 and GAS. Specifically, the Firm should do the following:
   1. Report an internal control finding related to a material misstatement of JSND’s
       SEFA.
   2. Work with JSND to correct and reissue the Single Audit report to the Federal
       Audit Clearinghouse.
   3. Emphasize the Firm’s audit documentation policy to those performing Single
       Audits to ensure Single Audit projects are documented in accordance with GAS.
   4. Provide additional training targeting supervisory review of audit documentation
       and quality control over reviewing Single Audit reports.

A-133, Section 400(a)(5), requires us to advise the auditor, and where appropriate, the
auditee of any deficiencies found in the audits when the deficiencies require corrective
action by the auditor. When advised of deficiencies, the auditee shall work with the
auditor to take corrective action. If corrective action is not taken, we are responsible for
notifying the auditor, the auditee, and applicable Federal awarding agencies and
pass-through entities of the facts and make recommendations for follow-up action.



                                              4    Single Audit QCR – Job Services North Dakota
                                                               Report Number: 18-11-008-03-001
                                            U.S. Department of Labor – Office of Inspector General


Major inadequacies shall be referred to appropriate State licensing agencies and
professional bodies for disciplinary action.

Did the Firm’s Single Audit comply with applicable standards and Single Audit
requirements so that no follow-up work or management’s attention would be
needed?


       By not identifying and reporting a material weakness in the presentation of the
       SEFA, the Firm did not ensure users of JSND’s Single Audit Report had
       information needed to make informed decisions on JSND’s use of Federal
       awards.

Finding 1 — The Firm did not report an audit finding related to JSND not reporting
            total UI expenditures in the SEFA.

The Firm did not ensure that the auditee complied with reporting requirements to
prepare the SEFA in the format required by OMB A-133 Compliance Supplement.
Reported UI expenditures are required to include all benefit payments whether paid with
Federal or state funds. The SEFA was materially understated by almost $87 million
because the state UI payments were not included by JSND in its report and the Firm did
not ensure the SEFA reporting was accurate. If this condition had been found by the
Firm, it should have issued a finding related to JSND that it did not have adequate
controls in place to ensure the completeness of the SEFA.

OMB A-133 Compliance Supplement, Part 4-17.225-IV, requires that State UI funds
should be included with Federal funds on the SEFA. GAS, 5.26 through 5.30, state that
if material misstatements are identified by the auditors after the report is issued, then
this may lead to the auditee reissuing the report within an appropriate timeframe and
with appropriate disclosures. Furthermore, GAS, 5.31, requires that if the auditee does
not reissue the report accordingly, then it is the Firm’s responsibility to inform
appropriate officials in order to prevent further reliance in the previously issued report.

The SEFA reported approximately $51 million in UI expenditures; however, the JSND
Statements of Revenue, Expenses and Changes in Fund Net Assets reported $51
million in Federal UI expenditures and almost $87 million in state UI expenditures.
Although the Firm tested both Federal and state UI expenditures, the inaccurate SEFA
reporting was not identified and corrected due to a lack of auditee and Firm
understanding of OMB reporting requirements.

The Firm should have identified JSND’s SEFA preparation error and issued a finding
that JSND did not have adequate controls in place to ensure the SEFA’s completeness.
When the SEFA is not presented accurately, it does not allow users to efficiently and
effectively use the data contained in the reports.




                                              5    Single Audit QCR – Job Services North Dakota
                                                               Report Number: 18-11-008-03-001
                                          U.S. Department of Labor – Office of Inspector General


Finding 2 — The Firm did not always include audit documentation as required by
            GAS.

The Firm did not always ensure its referenced audit documentation adequately
supported its conclusions on JSND’s internal control and compliance as required by
GAS and A-133. For example, referenced audit documentation did not show how the
Firm ensured:

   1.	 completeness of databases used in testing internal control over compliance and
       compliance with laws, regulations and grant agreements;
   2.	 sufficiency of audit documentation to support a conclusion on the allowability of
       payroll charges to a specific grant fund;
   3. reasonableness of some random samples;
   4. adequacy of explanations and discussions with auditee management for material
       variances noted during analytical procedures; and
   5.	 sufficiency of audit documentation referencing to supporting detailed audit 

       documentation.


GAS, paragraph 4.19, states, in part:

      Under the American Institute of Certified Public Accountants standards
      and GAS, auditors should prepare audit documentation that enables an
      experienced auditor, having no previous experience to the audit, to
      understand:
       (a)	 the nature, timing, and extent of auditing procedures performed to
             comply with Generally Accepted Government Auditing Standards
             (GAGAS) and other applicable standards and requirements;
       (b)	 the results of the audit procedures performed and the audit
             evidence obtained;
       (c)	 the conclusions reached on significant matters; and
       (d)	 that the accounting records agree or reconcile with the audited
             financial statements or other audited information.

The Firm stated that JSND was an ongoing client, which could have contributed to the
auditors and those responsible for reviewing the audit documentation to use their past
knowledge of the client’s accounting processes — rather than adequately documenting
the information in the audit documentation as required by the Firm’s policy — as support
for the work performed and conclusions reached. The Firm was able to provide verbal
information and audit documentation that had not originally been referenced as support
for its conclusions.

The lack of documented explanations and referencing regarding how compliance and
internal control testing was conducted and how it formed the basis for the documented
conclusions could raise questions on whether the auditors, including the reviewer,
understood the testing that was performed and the conclusions reached.



                                            6    Single Audit QCR – Job Services North Dakota
                                                             Report Number: 18-11-008-03-001
                                         U.S. Department of Labor – Office of Inspector General


Recommendations

We recommend the Firm:

   1. Follow GAS 5.26 through 5.31 related to subsequent discovery of facts existing
      at the date of the auditor’s report to ensure users of JSND’s Single Audit
      reporting package are aware of the reporting errors. This would include reporting
      the appropriate findings noted in this report.

   2. Work with JSND to correct and reissue the Single Audit report to the Federal
      Audit Clearinghouse.

   3. Emphasize the Firm’s audit documentation policy to those performing Single
      Audits to ensure Single Audit projects are documented in accordance with GAS.

   4. Provide additional training targeting supervisory review of audit documentation
      and quality control over reviewing Single Audit reports.


Firm’s Response

The Firm agreed with the recommendations and provided its plans to address each of
them. See Appendix D for the Firm’s complete response.




                                           7    Single Audit QCR – Job Services North Dakota
                                                            Report Number: 18-11-008-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





               8    Single Audit QCR – Job Services North Dakota
                                Report Number: 18-11-008-03-001
               U.S. Department of Labor – Office of Inspector General




Appendices 





                 9    Single Audit QCR – Job Services North Dakota
                                  Report Number: 18-11-008-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





               10   Single Audit QCR – Job Services North Dakota
                                Report Number: 18-11-008-03-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving Federal financial assistance.
The Single Audit is the primary mechanism used by Federal agencies to ensure
accountability for Federal awards. Audits performed under the Act are intended to
satisfy all Federal agencies providing assistance to the entity. The act was amended in
1996 by Public Law 104-156, raising the threshold for Single Audit to $300,000 in
Federal assistance. The June 27, 2003, revision to A-133 raised this threshold to
$500,000 for fiscal years ending after December 31, 2003.

A QCR is performed to provide evidence of the reliability of Single Audits to the auditors
of Federal agency financial statements, such as those required by the Chief Financial
Officers Act, those responsible for the programs, and others. We performed a QCR of
the Single Audit of JSND financial statements, SEFA, and reports required by GAS and
A-133 for the year ended June 30, 2010, performed by the Firm.

For the year ended June 30, 2010, JSND reported expenditures of about $157 million in
total Federal awards and about $155 million in DOL awards, of which almost $14 million
was reported as attributable to the Recovery Act.

The Recovery Act was signed into law on February 17, 2009. The stated purposes of
the Recovery Act are to:

   •	 preserve and create jobs and promote economic recovery;
   •	 assist those most impacted by the recession;
   •	 provide investments needed to increase economic efficiency by spurring 

      technological advances in science and health; 

   •	 invest in transportation, environmental protection, and other infrastructure that
      will provide long-term economic benefits; and
   •	 stabilize state and local government budgets, in order to minimize and avoid
      reductions in essential services and counterproductive state and local tax
      increases.

The Recovery Act requires agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars are being spent. The Board was established by the Recovery Act, Congress,
and the OMB to oversee and monitor implementation of the Recovery Act through
periodic reporting on the use and expenditure of funds. We are required by the
Recovery Act, Title XV Accountability and Transparency, Subtitle A – Transparency and
Oversight Requirements, Section 1514 Inspector General Reviews, to post this report
on our website www.oig.dol.gov and link it to the Board’s website www.recovery.gov.




                                             11   Single Audit QCR – Job Services North Dakota
                                                              Report Number: 18-11-008-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





               12   Single Audit QCR – Job Services North Dakota
                                Report Number: 18-11-008-03-001
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our objectives were to determine whether:

   1. The audit was conducted in accordance with applicable standards and met the
      Single Audit requirements;
   2. any follow-up work is needed; and
   3. there are any issues that may require management’s attention.

To answer those objectives we asked the following question:

   Did the Firm’s Single Audit comply with applicable standards and Single Audit
   requirements so that no follow-up work or management’s attention would be
   needed?

Scope

We performed a QCR of the Firm’s Single Audit of the JSND financial statements,
SEFA, and reports required by GAS and A-133 for year ended June 30, 2010. As part of
the QCR, we included review of the Single Audit reports issued by JSND and the Firm
for the years ended June 30, 2009 and 2010. We performed our work at the offices of
the Firm at 1730 Burnt Boat Loop, Suite 100, Bismarck, ND.

Our review included the following DOL major programs: the ES cluster, UI, and WIA
cluster totaling $153,469,345, including $13,995,400 in Recovery Act expenditures

Methodology

Using the President’s Council of Inspectors General on Integrity and Efficiency Uniform
Guide for QCRs of OMB Circular A-133 Audits (QCR Guide), we reviewed audit
documentation and held discussions with the Firm’s partners and auditors to accomplish
the required steps. The QCR Guide was developed to test for compliance with GAS
general and fieldwork standards and A-133 requirements.

Specifically, we reviewed:

   •    Auditor Qualifications
   •    Independence
   •    Due Professional Care
   •    Quality Control
   •    Planning and Supervision
   •    Management Representations
   •    Litigation, Claims and Assessments

                                             13   Single Audit QCR – Job Services North Dakota
                                                              Report Number: 18-11-008-03-001
                                          U.S. Department of Labor – Office of Inspector General


   •    Possible Fraud or Illegal Acts
   •    Determination of Major Programs
   •    Schedule of Expenditures of Federal Awards
   •    Audit Follow up
   •    Reporting
   •    Internal Control Over Major Programs
   •    Data-Collection Form

We also reviewed the Firm’s peer review applicable to the period of the audit, as well as
the Single Audit reports issued by JSND and the Firm for the years ended
June 30, 2008 and 2009 to identify systemic issues.

Criteria

A-133

American Institute of Certified Public Accountants Audit Guide, GAGAS, and A-133
Audits

GAGAS, July 2007 Revision

Guidance on GAGAS Requirements for Continuing Professional Education

Recovery Act

Single Audit Act of 1984

Single Audit Act Amendments of 1996




                                            14   Single Audit QCR – Job Services North Dakota
                                                             Report Number: 18-11-008-03-001
                                       U.S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations

  A-133          Office of Management and Budget Circular A-133

  Board          Recovery Accountability and Transparency Board

  CFDA           Catalog of Federal Domestic Assistance

  DOL            Department of Labor

  ES             Employment Services

  Firm           Eide Bailly, LLP

  GAS            Government Auditing Standards

  GAGAS          Generally Accepted Government Auditing Standards

  JSND           Job Service North Dakota

  OIG            Office of Inspector General

  OMB            Office of Management and Budget

  QCR            Quality Control Review

  QCR Guide      President’s Council on Integrity and Efficiency Uniform QCR Guide
                 for A-133 Audits

  Recovery Act   American Recovery and Reinvestment Act

  SEFA           Schedule of Expenditures of Federal Awards

  UI             Unemployment Insurance

  WIA            Workforce Investment Act




                                          15   Single Audit QCR – Job Services North Dakota
                                                           Report Number: 18-11-008-03-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





               16   Single Audit QCR – Job Services North Dakota
                                Report Number: 18-11-008-03-001
                                                                                 U.S. Department of Labor – Office of Inspector General


                                                                                                                                                Appendix D
Independent Public Accountant Response to Draft Report




                                                                             ~
                                                                     EideBaill~
                                                                         ~


         September 30. 20 I I


         Elliot P. L \' is
         Assistant Inspector General for Audit
         US Department of Labor
         Office of Inspector General
         Washington, DC 20210


         Dear Mr. Lewis:

         In conjunction with your Quality Control Review of the Single Audit of Job Service North Dakota for the
         year ended June 30, 2010, we have the following responses to the findings and recommendations included
         in your report.

         Finding #1- We agree with the finding, and accordingly, will follow the requirements of GAS 5.26
         through 5.31 related to subsequent discovery of facts to ensure that the identified reporting errors are
         appropriately addressed, including the reporting of the appropriate finding in the Government Auditing
         Standards report. We will work with Job Service North Dakota to correct and reissue the Single Audit
         report to the Federal Audit Clearinghouse. We believe that this will appropriately address
         recommendation numbers one and two.

         Finding #2 - We agree with the finding . Effective beginning with Single Audit engagements for periods
         ending on or after December 31,2010, the Firm implemented a policy requiring an engagement quality
         review for all Single Audits . We believe that this will appropriately address recommendation number
         three. The Firm conducts annual firm-wide training for all partners and managers assigned to Single Audit
         engagements. We will include training on audit documentation and supervisory review in future training
         sessions. We will also share the results of this QCR with the Chair of our Firm Government Committee
         for distribution of the findings and areas for improvement to applicable Firm personne1. We believe that
         this will appropriately address recommendation number four.

         Sincerely,




         Brian Bluhm, CPA
         Director of Assurance Services




                                                                     www . eidebai lly .com
                      5601 Gre<l n Vollr;>y Dr., Str;>. 700   I Minnr;>c;>pOli$, MN 55<137-11 45 I T 952 .9<1.4.6 166 I F 95 2.944.8496 I EOE




                                                                                     17        Single Audit QCR – Job Services North Dakota
                                                                                                           Report Number: 18-11-008-03-001
